Audit Report




OIG-10-034
RECOVERY ACT: Improvement Is Needed in Treasury’s Data
Quality Reviews
January 28, 2010




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report................................................................................................. 1

Results in Brief ................................................................................................ 2

Background ..................................................................................................... 4

Findings and Recommendations ......................................................................... 8

    Treasury Should Establish Written Policies and Procedures
    for Agency-Wide Oversight of Data Quality Reviews ....................................... 8

    Recommendation......................................................................................... 10

    CDFI Fund’s Data Quality Review Process Did Not Identify
    All Errors or Discrepancies in Recipient Reported Data ..................................... 10

    Recommendation......................................................................................... 13

    OFAS Should Ensure a System Is in Place for Collecting
    Recipient Data Under the Specified Energy Property Program ............................ 14

    Recommendation......................................................................................... 15

Appendices
    Appendix     1:   Objectives, Scope, and Methodology ...........................................             17
    Appendix     2:   Management’s Response............................................................          19
    Appendix     3:   Major Contributors to This Report ...............................................          21
    Appendix     4:   Report Distribution ....................................................................   22

Abbreviations
    Board                     Recovery Accountability and Transparency Board
    BPD                       Bureau of the Public Debt
    CDFI Fund                 Community Development Financial Institutions Fund
    OFAS                      Office of the Fiscal Assistant Secretary
    OIG                       Office of Inspector General
    OMB                       Office of Management and Budget
    OPE                       Office of the Procurement Executive
    Recovery Act              American Recovery and Reinvestment Act of 2009
    SAO                       Senior Accountable Official

                          Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)              Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       January 28, 2010

                       Daniel Tangherlini, Assistant Secretary for Management of the
                          Treasury, Chief Financial Officer, and Chief Performance
                          Officer

                       This report presents the results of our audit of the Department of
                       the Treasury’s process for ensuring the quality of data reported by
                       recipients of American Recovery and Reinvestment Act (Recovery
                       Act) funds. We performed this engagement as part of our ongoing
                       audit oversight of Treasury’s non-Internal Revenue Service (IRS)
                       programs and use of funds authorized by the Recovery Act.1
                       Section 1512 requires recipients of Recovery Act funds from
                       Federal agencies to report on the use of funds and that agencies
                       make this information available to the public on their respective
                       websites at the end of each calendar quarter beginning with the
                       quarter ending September 30, 2009. 2 The Recovery Accountability
                       and Transparency Board (the Board) has requested assistance from
                       agency Inspectors General to determine whether their respective
                       agencies have established a process for ensuring the quality of
                       Section 1512 data reported by recipients of Recovery Act funds.

                       The objectives of this audit were to determine whether Treasury
                       has policies and procedures in place for performing limited data
                       quality reviews of Section 1512 data reported by recipients, to
                       include whether the reviews were designed to identify material
                       omissions and significant errors and, where necessary, a process in
                       place for notifying recipients of misreported data for timely
                       correction. Furthermore, since the Office of the Fiscal Assistant
                       Secretary (OFAS) is responsible for distributing and administering

1
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009).
2
  Section 1512 (f) “Compliance - Within 180 days of enactment, as a condition of receipt of fund under
this Act, Federal agencies shall require any recipient of such funds to provide the information required
under subsection (c)”.

                       Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)      Page 1
                       much of Treasury’s Recovery Act funds, we also determined
                       whether OFAS has policies and procedures in place for performing
                       data quality reviews of recipient reported data not required by
                       Section 1512 but similar to the data required by Section 1512. 3
                       Appendix 1 contains a more detailed description of audit
                       objectives, scope, and methodology.

Results in Brief
                       We found that while data quality reviews were performed at the
                       bureau- and program office-level, Treasury had not established
                       written policies and procedures for its agency-wide oversight
                       responsibilities. Specifically, there was nothing in writing to ensure
                       consistency of data quality reviews performed across Treasury, nor
                       did Treasury’s Recovery Act team 4 perform reviews to ensure
                       completeness and accuracy of data reported in
                       FederalReporting.gov. 5 Therefore, we are recommending that
                       Treasury establish written policies and procedures for agency-wide
                       oversight of the data quality reviews that will ensure that delegated
                       reviews are adequately and consistently performed. Those written
                       policies and procedures should also ensure that all recipients
                       awarded Recovery Act funds through Treasury programs are
                       accurately reported in FederalReportng.gov each quarter and that
                       recipient reports not related to Treasury programs are removed in a
                       timely manner.

                       We also found that the Community Development Financial
                       Institutions (CDFI) Fund, which distributes Recovery Act funds to
                       recipients that fall under the Section 1512 reporting requirements
                       and accounts for 69 of Treasury’s 71 recipient reports, did not
                       identify all errors and other discrepancies in the recipient reported

3
  Programs under Division A of the Recovery Act are subject to the requirements of Section 1512
reporting. Treasury’s grants in lieu of tax credit programs for low-income housing and specified energy
property are under Division B. Division B programs do not require recipient reporting under Section
1512. However, OMB has determined that such data should be collected and made available upon
request.
4
  Treasury’s Recovery Act team was established to carry out the day to day Recovery Act activities. It
is headed by the Deputy Assistant Secretary (Management and Budget) and comprised of a program
lead and four staff.
5
  FederalReporting.gov is OMB’s government-wide data collection system for Federal agencies and
recipients of Federal awards to submit Recovery Act Section 1512 data.
(https://www.federalreporting.gov/federalreporting/home.do).

                       Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)      Page 2
data. We also found that CDFI Fund’s process was not well
documented, consistently applied, nor fully performed during the
final review phase as required by the Office of Management and
Budget (OMB). Accordingly, we are recommending that the CDFI
Fund amend its policies and procedures to include detailed steps
for identifying the proper source documents to review as well as
the procedures to be applied so that reviews are conducted
consistently. These procedures should also require that
discrepancies/exceptions are documented in a central tracking
system or spreadsheet to ensure their timely correction as well as
to better enable final and supervisory reviews.

We found that OFAS, the office responsible for administering the
grants-in-lieu-of-tax-credit Recovery Act programs, has a process
for reviewing project performance reports received from recipients
under the low-income housing program, but was still finalizing its
system for collecting data from recipients under the specified
energy property program during the time of our fieldwork. Since
the data contained in the project performance reports will be used
for monitoring recipients’ compliance with their respective award
agreements, we are recommending that OFAS ensure a system is
in place for recipients to report data under the specified energy
property program by January 1, 2010, to coincide with when the
first reports are due.

Overall, management agreed with the recommendations contained
in this report and is in the process of or already has taken steps to
address them. Treasury’s Recovery Act team issued a
memorandum to bureaus and offices subject to Section 1512
reporting outlining the team’s role at the Department level for
current and subsequent reporting. Additionally, the CDFI Fund will,
in accordance with our recommendation, track identified data field
discrepancies in a consistent manner. That said, while the response
to this report did not specifically address modifications to the CDFI
Fund’s policies and procedures for conducting data quality reviews,
we encourage the policies and procedures be amended to address
and clarify the source documents to be used in performing those
reviews. Finally, OFAS management, in accordance with our
recommendation, is also working on establishing a data collection
system for the specified energy property program.



Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 3
             Although management expressed its commitment to addressing our
             recommendations in its written response, the response did not
             identify estimated dates for completing planned actions, which
             management will need to develop and record in the Joint Audit
             Management Enterprise System (JAMES), Treasury’s audit
             recommendation tracking system. We will follow up on
             management’s actions to address our recommendations as part of
             our ongoing audit oversight of Treasury’s Recovery Act programs.
             Management’s response is provided in appendix 2.

Background
             The Recovery Act was enacted in response to what has been
             reported to be the most serious economic crisis since the Great
             Depression. The purposes of the Recovery Act are to preserve and
             create jobs and promote economic recovery; to assist those most
             impacted by the recession; to provide investments needed to
             increase economic efficiency by spurring technological advances in
             science and health; to invest in transportation, environmental
             protection, and other infrastructure that will provide long-term
             economic benefits; and, to stabilize State and local government
             budgets in order to minimize and avoid reductions in essential
             services and counterproductive state and local tax increases.

             The Recovery Act also provides that every taxpayer dollar spent on
             the economic recovery be subject to unprecedented levels of
             transparency and accountability and established new reporting
             requirements related to awarding and use of funds to promote
             transparency to help drive accountability for timely, prudent, and
             effective spending of Recovery Act dollars. Section 1512 requires
             that recipients of Recovery Act funds under Division A—
             Appropriations Provisions report on the use of those funds to
             awarding Federal agencies no later than 10 days after each
             calendar quarter. The Recovery Act does not require recipients
             under Division B—Tax, Unemployment, Health, State Fiscal Relief,
             and Other Provisions, to report on the use of funds as much of the
             relief is awarded through tax provisions.

             Section 1512 specifically requires recipients to submit a report that
             contains the following information:


             Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 4
                              •   total amount of recovery funds received;

                              •   the amount of recovery funds received that were expended
                                  or obligated to projects or activities;

                              •   a detailed list of all projects or activities for which recovery
                                  funds were expended or obligated (name, description,
                                  evaluation of completion status, estimate of number of jobs
                                  created and retained, infrastructure investments made by
                                  states); and

                              •   detailed information on any sub-contracts or sub-grants
                                  awarded by the recipient to include data elements required
                                  to comply with the Federal Funding Accountability and
                                  Transparency Act of 2006, allowing aggregate reporting on
                                  awards below $25,000 or to individuals, as prescribed by
                                  the Director of OMB. 6

                          Federal agencies are also required by Section 1512 to make the
                          information in recipients’ reports publically available on their
                          respective websites no later than 30 days after calendar quarter
                          end.

                          In order for Federal agencies and recipients to fulfill their Section
                          1512 reporting obligations, the Board and OMB collaborated on a
                          nationwide data collection system intended to reduce information
                          reporting burden on recipients and simplify reporting instructions.
                          That nationwide data collection system, known as
                          FederalReporting.gov, allows agencies and recipients to submit,
                          view, comment, update, and correct Section 1512 reports. The
                          system works in conjunction with Recovery.gov to provide a
                          comprehensive solution for recipient reporting and Recovery Act
                          data transparency. Once awarding agencies review recipient
                          reports in FederalReporting.gov, reports are made available on
                          Recovery.gov to the public.

                          OMB also provided guidance in M-09-21 to assist prime recipients,
                          sub-recipients, and awarding agencies implementing Section 1512



6
    Pub. L. No. 109-282

                          Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 5
                     reporting requirements. 7 The following milestones were established
                     for the reporting and reviewing of recipient data.

                     Milestones

                             •   During days 1-10 following the end of the quarter,
                                 recipients and delegated sub-recipients prepare and enter
                                 their reporting information. Prime recipients and delegated
                                 sub-recipients that have not submitted their data reports
                                 by the end of the 10th day will be considered non-
                                 compliant with the recipient reporting requirements. 8

                             •   During days 11-21 following the end of the quarter, prime
                                 recipients ensure that complete and accurate reporting
                                 information is provided prior to the Federal agency
                                 comment period beginning on the 22nd day. Agencies
                                 may perform an initial review of the information in a
                                 “view-only” mode during this time period, but they will
                                 not be allowed to provide official feedback to prime
                                 recipients. 9

                             •   During days 22-29 following the end of the quarter,
                                 Federal agencies review and, if determined, comment on
                                 the submitted reporting information. Submitted reports
                                 will not be editable by prime recipients or delegated sub-
                                 recipients during this time period unless notified by the
                                 Federal agencies. The Federal agencies will perform a
                                 data quality review to assess the completeness and
                                 accuracy of the reporting. 10

                     In its guidance, OMB required agencies to develop internal policies
                     and procedures for reviewing reported data for compliance,
                     accuracy, and consistency with Federal award data and
                     reasonableness of additional data provided in accordance with
                     Section 1512 reporting. Federal agencies were required to review

7
  OMB M-09-21, “Implementing Guidance for the Reports on Use of Funds Pursuant to the American
Recovery and Reinvestment Act of 2009” (June 22, 2009).
(http://www.whitehouse.gov/omb/assets/memoranda_fy2009/m09-21.pdf)
8
  The first milestone for recipient reporting was October 1-10, 2009.
9
  The second milestone for recipient data review was October 11-21, 2009.
10
   The third milestone for agency review was October 22-29, 2009.

                     Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 6
                    recipient data for material omissions and significant reporting
                    errors.

                        •   Material omissions are defined as instances where required
                            data is not reported or reported information is not otherwise
                            responsive to the data requests resulting in significant risk
                            that the public is not fully informed as to the status of a
                            Recovery Act project or activity.

                        •   Significant reporting errors are defined as those instances
                            where required data is not reported accurately and such
                            erroneous reporting results in significant risk that the public
                            will be misled or confused by the recipient report in question.

                    OMB provides that agencies should also coordinate how to apply
                    definitions of material omissions and significant errors within and
                    across program areas in a given agency for ensuring consistency in
                    the manner in which data quality reviews are carried out within an
                    agency.

                    Also, in its implementation guidance, OMB required that agencies
                    designate a Senior Accountable Official (SAO) responsible for
                    coordinating across bureaus, program offices, and programs. 11
                    Treasury designated the Assistant Secretary for Management of
                    the Treasury, Chief Financial Officer and Chief Performance Officer
                    as the SAO. To further assist the SAO, a Recovery Act team was
                    established to carry out the day to day Recovery Act activities. In
                    addition, bureau accountable officials and Recovery Act teams
                    were established to carry out Recovery Act activities within each
                    of the program offices that received Recovery Act funds.

                    Recipients of Recovery Act funds awarded through a Division A
                    program that were required to report Section 1512 data include
                    recipients under the CDFI Fund grant program and contractors
                    providing support services to the CDFI Fund. The related contracts
                    are administered by the Bureau of the Public Debt (BPD). Although
                    Treasury’s programs for the low-income housing and specified


11
  OMB Memorandum 09-15, “Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009” (April 3, 2009).


                    Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 7
            energy property are under Division B, OFAS requires data
            consistent with Section 1512 to be submitted to Treasury as a
            condition of award.

Findings and Recommendations

Finding 1   Treasury Should Establish Written Policies and Procedures
            for Agency-Wide Oversight of Data Quality Reviews

            Treasury has not established written policies and procedures for its
            agency-wide oversight responsibilities related to the data reported
            under its Recovery Act programs. Specifically, Treasury lacks
            written policies and procedures to provide for consistent reviews of
            data quality as well as completeness and accuracy of data reported
            in FederalReporting.gov. Treasury’s Recovery Act team relied on
            the data quality reviews performed by the program offices.
            However, we found that the program offices did not always
            adequately perform their reviews.

            According to OMB M-09-21, agencies are required to develop
            internal policies and procedures for reviewing Section 1512
            reported data. Data quality reviews are intended to emphasize the
            avoidance of two key data problems, material omissions and
            significant reporting errors. Included in the guidance, Federal
            agencies are tasked with coordinating across their programs to
            ensure consistency in the manner in which data quality reviews are
            carried out.

            We interviewed the Treasury’s Recovery Act team to determine
            how the team planned to ensure Treasury’s compliance with
            Section 1512 and OMB M-09-21 requirements. According to the
            team, they did coordinate with the program offices through
            discussions and written correspondence. The team, however, did
            not establish written policies and procedures for the performance
            of data quality reviews nor did it develop internal processes to
            provide for its own oversight responsibilities.

            During the recipient review phase (days 11 – 21), we looked at
            FederalReporting.gov and discovered 82 reports attributed to
            Treasury. This was unexpected because we were informed that


            Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 8
only 69 CDFI Fund grant recipients were required to report Section
1512 data. Accordingly, we immediately contacted Treasury’s
Recovery Act team to inquire as to the validity of the 13
unexpected reports. Treasury’s Recovery Act team researched the
anomaly and informed us that two of the reports did relate to
contracts in support of the CDFI Fund grant program and were
required to be reported under Section 1512 (these contracts are
administered by BPD on behalf of the CDFI Fund). We also learned
that one report submitted by Alaska was erroneous and would be
removed. The team also confirmed to us that the remaining 10
reports were either coded incorrectly or were not Recovery Act
contracts and should not have been reported at all. The team
ensured that these reports would be reassigned to the applicable
agency or removed, if appropriate. At the end of the exercise,
Treasury’s Recovery Act team confirmed that 71 recipients were
required to report Section 1512 data.

With regard to the two contracts administered by BPD on behalf of
the CDFI Fund, we followed up with the Office of Procurement
Executive (OPE) and BPD as to whether data quality reviews were
performed. Although OPE delegated the data quality review to BPD
which was responsible for administering the contracts, no written
policies and procedures for reviewing recipient contract data were
developed. That said, with assistance provided by OPE personnel,
BPD staff did perform the reviews and no data quality issues were
identified.

We found that while BPD and the CDFI Fund established processes
for performing data quality reviews, the processes were not well
documented. Accordingly, Treasury needs to ensure the program
offices have well developed and documented policies and
procedures that meet OMB M-09-21 data quality review
requirements. Furthermore, while Treasury’s Recovery Act team
did resolve the reporting errors that were identified, Treasury needs
to establish a process for tracking identified errors to ensure they
are corrected properly and in a timely manner.




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 9
            Recommendation

            We recommend that the Senior Accountable Official:

            Establish written policies and procedures for agency-wide oversight
            of the data quality reviews in accordance with Section 1512 of the
            Recovery Act and OMB M-09-21 that will ensure that delegated
            reviews are adequately and consistently performed. Those policies
            and procedures should also ensure that all recipients awarded
            Recovery Act funds through Treasury programs are accurately
            reported in FederalReporting.gov each quarter and that recipient
            reports not related to Treasury programs are removed in a timely
            manner.

            Management Response

            Management expressed a commitment to address our
            recommendation and has taken action by issuing a memorandum to
            bureaus and offices outlining the Recovery Act team’s role in
            current and future recipient reporting periods.

            OIG Comment

            Management’s action meets the intent of our recommendation if
            the issued memorandum addresses all items in our
            recommendation. We will follow up on management’s actions as
            part of our audit oversight of Treasury’s Recovery Act programs.

Finding 2   CDFI Fund’s Data Quality Review Process Did Not
            Identify All Errors or Discrepancies in Recipient Reported
            Data

            The CDFI Fund’s process for reviewing recipient data did not
            identify all errors or discrepancies in recipient reports. Furthermore,
            while the CDFI Fund did establish a summary level policy for
            reviewing recipient data, we found that there were no specific
            written procedures for performing and documenting such reviews.
            For example, the policy did not provide the reviewer with clear
            guidance on how to verify the reported data, assess its
            reasonableness, or track identified discrepancies. We also found


            Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 10
that the reviews performed during the final agency review phase
did not fully comply with OMB M-09-21.

The CDFI Fund created a team consisting of five staff focused
specifically on its Recovery Act activities with four of the five staff
dedicated to performing data quality reviews. Recovery Act grants
were awarded to 69 qualifying CDFIs that were required to report
Section 1512 data. Much of the data required under Section 1512
was already being collected by the CDFI Fund as part of its regular
annual reporting requirements. The CDFI Fund took several
measures to prepare recipients for the first reporting milestone of
October 1-10, 2009, by encouraging early registering in the
FederalReporting.gov system and providing instructions through a
webinar. In addition, a Quarterly Institution Level Report (QILR)
was developed by the CDFI Fund in July 2009 to capture much of
the annual reporting data on a quarterly basis to aid in the data
quality review process.

To prepare for the data quality review process, the CDFI Fund
developed a summary policy, Recovery Act Team QILR and
FederalReporting.gov Internal Process, that provided, among other
things, a timeline for review. The CDFI Fund also provided
guidelines for performing the data quality reviews in, Internal
Process for Reviewing FederalReporting.gov Data. These guidelines
addressed the need to check for the completeness, consistency,
and reasonableness of recipient data. However, the policy and
guidelines did not include detailed steps for performing reviews to
ensure information in FederalReporting.gov was accurate.
Specifically, the policy and guidelines did not identify all
independent source documents to be used during the actual review
process or require reviewers to document discrepancies/exceptions
for follow up. For example, we found that reviewers were
documenting discrepancies/exceptions individually and not in a
central tracking system or spreadsheet.

The CDFI Fund reviewers started the first quarter review earlier
than required by OMB (days 11 – 21). Based on this early review,
three significant errors and several other minor discrepancies were
discovered and recipients were notified via phone calls and e-mails
to make the necessary corrections.



Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 11
                       During the final agency review phase (days 22 – 29), however, we
                       found that the CDFI Fund reviewers did not perform an overall data
                       quality review of all recipient reports as required in OMB M-09-21.
                       Instead, reviewers checked that recipients made the corrections
                       that had been identified and communicated during the early review.
                       If it was determined that change was not made, the CDFI Fund
                       reviewers made formal comments in FederalReporting.gov so that
                       the system could be unlocked, allowing the cognizant recipient(s)
                       to make the necessary change(s). During our review of 4 of the 69
                       recipient reports, we found a number of discrepancies after the
                       final lock down of data on October 30, 2009, that were not
                       identified by reviewers during the final agency review phase. We
                       believe that 4 of these discrepancies could be considered
                       significant. These discrepancies related to the number of jobs
                       created and retained, the addresses for two primary places of
                       performance, and the use of an incorrect Treasury Account Symbol
                       (TAS). 12

                       We also noted that the CDFI Fund did not review for the accuracy
                       of Congressional district information from source documentation.
                       Instead, we were told that reasonableness checks were made
                       based on what was known about the recipient.

                       Other discrepancies we noted resulted from FederalReporting.gov
                       data not agreeing with the source documents identified in CDFI
                       Fund’s policy, Internal Process for Reviewing FederalReporting.gov
                       Data. However, we did not consider these discrepancies significant
                       errors since we were able to verify the data from other independent
                       sources.

                       Because the errors and discrepancies that we identified resulted
                       from a review of only 4 of the 69 recipient reports, we determined
                       that CDFI Fund’s review process was not well designed in that it
                       allows for potentially material omissions and significant errors to be
                       reported without detection or prevention. As a result, we did not
                       perform additional testing to make projections across all recipient
                       reports. Furthermore, because we did not test the other 65
                       recipient reports, it is possible that significant errors or material
                       omissions could exist in the CDFI Fund’s recipient reports.

12
  TAS is an identification code assigned to an appropriation, receipt, or other fund account that, in this
case, was used to identify the CDFI Fund’s program account.

                       Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)       Page 12
Although CDFI Fund did establish a process for reviewing recipient
reported data in accordance with Section 1512, improvement in
the design of its process is needed to ensure potentially material
omissions and significant errors are identified and corrected prior to
the lockdown of data in FederalReporting.gov. Furthermore, CDFI
Fund should also comply with OMB’s requirement that agencies
perform data quality reviews during the final review phase.

Recommendation

We recommend that the Senior Accountable Official ensure that
the CDFI Fund do the following:

Amend its existing policies and procedures to include, among other
things, steps to identify the proper source documents to review as
well as the procedures to be applied so that reviews are conducted
consistently. The procedures should also require that
discrepancies/exceptions be documented in a central tracking
system or spreadsheet to ensure their timely correction as well as
to better enable final and supervisory reviews.

Management Response

Management expressed a commitment to address our
recommendation and has taken action to consistently track data
quality issues.

OIG Comment

Management’s response meets the intent of our recommendation.
However, while the response to this report did not specifically
address modifications to the CDFI Fund’s policies and procedures
for conducting data quality reviews, we encourage the policies and
procedures be amended to address and clarify the source
documents to be used in performing those data quality reviews.
Treasury will also need to establish estimated completion dates for
its planned actions to address this recommendation and record that
information in JAMES. We will follow up on management’s actions
as part of our audit oversight of Treasury’s Recovery Act
programs.


Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 13
Finding 3   OFAS Should Ensure a System Is in Place for Collecting
            Recipient Data Under the Specified Energy Property
            Program

            OFAS needs to ensure that a system is in place for collecting
            annual project performance reports from recipients under the
            specified energy property program no later than January 1, 2010,
            as the first reports are due starting that month. Currently, OFAS
            does not have a system in place for collecting and reviewing
            recipient reports. It is our understanding that an automated process
            for reporting will be in place for the January 2010 reporting cycle.
            Without a mechanism for collection, recipients will be unable to
            fully comply with the terms and conditions of their award
            agreements and OFAS will be unable to effectively monitor and
            report on the specified energy property program.

            In accordance with the program terms and conditions for awards,
            recipients under both the low-income housing and specified energy
            property programs must submit project performance reports
            containing data consistent with Section 1512 requirements.
            Reports are to be collected quarterly for the low-income housing
            program and annually for the specified energy property program.
            Although these reports are not subject to data quality reviews
            required by OMB M-09-21, OMB has stated that it expects OFAS
            to provide Section 1512-like data upon request. Furthermore, it is
            our understanding that OFAS intends to use these reports as a
            monitoring tool for assessing recipients’ compliance with the terms
            and conditions of their awards.

            To date, 40 state recipients under the low-income housing program
            have submitted quarterly reports electronically to Treasury’s
            website established for this program. OFAS staff ensured all
            required reports were received and that all information was
            reported. This data was reviewed and found by OFAS staff to be
            complete.

            Recipient data under the specified energy property program will not
            be available to OFAS until January 2010 at which time OFAS plans
            to have an automated system in place for recipients to submit their
            data. To collect recipient data, OFAS plans to add a reporting

            Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 14
functionality to the existing application system developed and
managed by Department of Energy’s National Renewable Energy
Laboratory. Termed “Phase 3 Reporting,” the reporting
functionality will allow awardees to log into the application system
and enter their annual project reports and supporting
documentation for any change in ownership, interruption in service,
and annual energy production reports. Recipients are also required
to certify that property has not been disposed of to a disqualified
person, continues to qualify as specified energy property, and the
recipient has not claimed the equivalent tax credit. The system will
be designed to send out automated email reminders to awardees
30 days before the annual report is due, as well as, additional
follow-up emails.

Once reports are received, OFAS plans to perform high level
reviews to confirm that reports were completed properly,
information matches applications, and documentation supports any
change in ownership or interruption of service. OFAS also intends
to use the information for its monitoring of recipient compliance
with award agreements.

Information collected for both the low-income housing and
specified energy property programs will be summarized and made
available to the public on Treasury’s Recovery Act website. As of
the date of this report, information collected on the low-income
housing program was not posted to Treasury’s Recovery Act
website.

Recommendations

We recommend that the Senior Accountable Official ensure that
OFAS do the following:

        Establish a system for recipients under the specified energy
        property program to submit annual project performance
        reports as required in the award agreements.




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 15
        Management Response

        Management concurred with our recommendation and is
        working on establishing a data collection system.

        OIG Comment

        Management’s response meets the intent of our
        recommendation. Treasury will need to establish estimated
        completion dates for its planned actions to address this
        recommendation and record that information in JAMES. We
        will follow up on management’s actions as part of our audit
        oversight of Treasury’s Recovery Act programs.

        Management’s response is provided in appendix 2.



                                 ******


We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Joel Grover, Deputy Assistant
Inspector General for Financial and Information Technology Audits,
at (202) 927-5768.



Marla A. Freedman
Assistant Inspector General for Audit




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 16
Appendix 1
Objectives, Scope, and Methodology


In September 2009, the Recovery Accountability and Transparency
Board (Board) requested assistance from agency Inspectors General
to determine whether their respective agencies have established a
process for ensuring the quality of Section 1512 data reported by
recipients of Recovery Act funds. Based on the Board’s request,
we determined whether Treasury has policies and procedures in
place for (1) performing data quality reviews of recipient-reported
Section 1512 data designed to detect material omissions and
significant reporting errors and (2) communicating problems
associated with that recipient-reported data for timely correction.
Furthermore, because much of Treasury’s recipients have or will
receive Recovery Act funds not covered by Section 1512 reporting
requirements, we also determined whether the Fiscal Assistant
Secretary (OFAS) has policies and procedures in place for
(1) performing data quality reviews of recipient reported data not
covered by Section 1512 reporting requirements designed to detect
material omissions and significant reporting errors and
(2) communicating problems associated with that recipient reported
data for timely correction.

We conducted our audit fieldwork during October and November
2009. We reviewed applicable guidance provided by the Board for
reviewing the agencies data quality process; reviewed guidance
provided by OMB to agencies for implementing recipient reporting
on use of funds; met with bureau and program office staff
responsible for performing data quality reviews of recipient data;
interviewed key Treasury personnel responsible for ensuring data
quality reviews are performed; interviewed OMB officials to gain an
understanding of OMB’s expectations regarding the collection and
reporting of recipient data not subject to Section 1512 reporting
requirements; and, performed walkthroughs of program office
reviews of recipient data to assess the effectiveness of Treasury’s
review process. We performed our work at the Community
Development Financial Institutions Fund and the Office of the Fiscal
Assistant Secretary.

Our audit was conducted in accordance with generally accepted
government auditing standards for performance audits. Those
standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We



Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 17
Appendix 1
Objectives, Scope, and Methodology


believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 18
Appendix 2
Management’s Response




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 19
Appendix 2
Management’s Response




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 20
Appendix 3
Major Contributors to This Report




Donna Joseph, Director
Daniel Domke, Audit Manager
Cynthia Milanez, Audit Manager
Chereeka Straker, Auditor in Charge
Erica Wardley, Auditor in Charge
Gerald Kelly, Auditor in Charge
Nicholas Slonka, Auditor
Theresa Cameron, Referencer




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 21
Appendix 4
Report Distribution




Department of the Treasury

Deputy Secretary
Assistant Secretary for Management of the Treasury,
   Chief Financial Officer, and Chief Performance Officer
Acting Fiscal Assistant Secretary
Deputy Assistant Secretary, Management and Budget
Deputy Chief Financial Officer
Senior Procurement Executive
Director, Office of Strategic Planning and Performance
   Management
Director, Community Development Financial Institutions Fund
Office of Tax Policy
Treasury Inspector General for Tax Administration
Deputy Director, Office of Performance Budgeting

Office of Management and Budget

OIG Budget Examiner

Department of Health and Human Services

Office of Inspector General

Recovery Accountability and Transparency Board

Government Accountability Office




Improvement Is Needed in Treasury’s Data Quality Reviews (OIG-10-034)   Page 22
 
